No. 20-1046
In the

Supreme Court of the United States
__________________
MARIN HOUSING AUTHORITY,
Petitioner,
v.
KERRIE REILLY,
__________________

Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of California

__________________

REPLY BRIEF FOR PETITIONER
__________________
ROBERT COOPER
Counsel of Record
WILSON ELSER MOSKOWITZ
EDELMAN & DICKER, LLP
555 South Flower Street
Suite 2900
Los Angeles, CA 90071-2407
(213) 330-8950
robert.cooper@wilsonelser.com
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
RULE 29.6 STATEMENT
The Rule 29.6 corporate disclosure statement
included in the petition for a writ of certiorari remains
accurate.

ii
TABLE OF CONTENTS
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
REPLY BRIEF FOR PETITIONER . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
I.

Respondent’s Jurisdictional Argument Lacks
Merit. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

II.

The Mutually Exclusive Views Adopted by
the Conflicting Authorities Cannot Be
Reconciled . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

III.

The Proposed Amendment to the Subject
Regulation Has No Bearing on This Case . . . 8

IV.

Respondent’s Attempt to Minimize the
Impact of the Split of Authority Is Futile. . . 10

V.

Respondent’s Remaining Arguments Should
Be Rejected . . . . . . . . . . . . . . . . . . . . . . . . . . 12

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

iii
TABLE OF AUTHORITIES
CASES
Alaska v. American Can Co.,
358 U.S. 224 (1959). . . . . . . . . . . . . . . . . . . . . . . . 8
Anthony v. Poteet Housing Authority,
306 Fed. Appx. 98 (5th Cir. 2009) . . . . . . . . . . 5, 6
Brady v. Maryland,
373 U.S. 83 (1963). . . . . . . . . . . . . . . . . . . . . . . . . 5
Commodity Futures Trading Com’n v. Schor,
478 U.S. 833 (1986). . . . . . . . . . . . . . . . . . . . . . . . 9
Cox Broadcasting Corp. v. Cohn,
420 U.S. 469 (1975). . . . . . . . . . . . . . . . . . . . 3, 4, 5
Douglas v. Independent Living Center,
565 U.S. 606 (2012). . . . . . . . . . . . . . . . . . . . . . . 10
Encino Motorcars, LLC v. Navarro,
136 S. Ct. 2117 (2016). . . . . . . . . . . . . . . . . . . . . . 9
Griffin Dewatering Corp. v. Northern Ins. Co. of
New York, 97 Cal. Rptr. 3d (2009) . . . . . . . . . . . . 2
In re Ali,
938 N.W.2d 835 (Minn. 2020). . . . . . . . . . . . . . . . 7
NAACP v. Claiborne Hardware Co.,
458 U.S. 886 (1982). . . . . . . . . . . . . . . . . . . . . . 3, 5
Nat’l Ass’n of Mfrs. v. Dep’t of Def.,
138 S. Ct. 617 (2018). . . . . . . . . . . . . . . . . . . . . . . 9

iv
REGULATIONS
24 C.F.R. 5.609(c)(16). . . . . . . . . . . . . . . . . . . . 2, 6, 12
84 Fed. Reg. 48820 (Sept. 17, 2019) . . . . . . . . . . . . . 8
OTHER AUTHORITIES
Jake Dear & Edward W. Jessen, ‘Followed Rates’
and Leading State Cases, 1940-2005, 41 U.C.
Davis L. Rev. 683 (2007). . . . . . . . . . . . . . . . . . . 10
Stephen Shapiro et al., Supreme Court Practice
(10th ed. 2013) . . . . . . . . . . . . . . . . . . . . . . . . . 3, 5
Christine Speidel, Difficulty of Care: Aligning Tax
and Health Care Policy for Family Caregiving,
52 Loy. U. Chi. L.J. 503 (2021). . . . . . . . . . . . . . 11

1
REPLY BRIEF FOR PETITIONER
Despite respondent’s best efforts to kick up dust,
the case for review remains exceptionally clear. As for
respondent’s initial claim that review is premature,
this argument can be easily dispatched because
petitioner’s view, if adopted, would bring this case to an
end. While disagreeing with HUD’s interpretation of its
own regulation, as articulated in HUD’s brief filed
below, respondent also insists that her interpretation
of the homecare-payment exclusion should prevail. The
adoption of her view in the decision below displaces the
considered, long-established views of the expert federal
agency that Congress authorized to implement the
massive Section 8 program, thus justifying review.
Respondent also tries to downplay the practical
repercussions of this case by disregarding the
arguments presented by different amici supporting the
petition based on ongoing, real-world harm caused by
the decision below. Far from demonstrating that the
issue presented will disappear, the brief in opposition
underscores its importance. The petition should be
granted.
ARGUMENT
I.

Respondent’s
Lacks Merit.

Jurisdictional

Argument

A. Respondent makes a half-hearted argument that
this case is supposedly not final (Opp. 12-15) because
the California Supreme Court “remand[ed] the matter
for further proceedings consistent with [its] opinion.”
Pet. App. 34a. While respondent does not even bother
to identify any specific issues that could somehow

2
preclude finality of the decision below, the record
refutes respondent’s diversionary argument.
In filing this lawsuit to challenge the termination of
her Section 8 subsidies, respondent sought two forms
of relief: (1) cancellation of her contractual repayment
plan requiring her to reimburse petitioner for its
overpayment of subsidies based on respondent’s
misrepresentation of her family size, and
(2) recalculation of the rental subsidies to exclude from
her annual income the amounts she was paid for taking
care of her daughter at home under section 5.609(c)(16)
of Title 24 (the “homecare-payment exclusion”). Resp.
App. 9a, ¶¶ 29-30; 10a-11a, ¶¶ 36-37, 40; Pet. App. 37a38a. Because “a party cannot recover on a cause of
action not in the complaint,” Griffin Dewatering Corp.
v. Northern Ins. Co. of New York, 97 Cal. Rptr. 3d 568,
573 (2009), these two issues are the only ones that can
form the basis for any relief here. 1
Although petitioner invoked two grounds in the trial
court to dismiss this lawsuit – i.e., the terminated
status of respondent’s subsidies based on her breach of
the repayment plan and petitioner’s interpretation of
the homecare-payment exclusion (Resp. App. 31a39a) – the trial court, the intermediate court and the
California Supreme Court addressed only the issue
presented here regarding the proper interpretation of
Section 5.609(c)(16). Pet. App. 26a, n.4; 74a-88a; 93a1

While the prayer in the complaint also sought reinstatement of
the terminated subsidies and injunctive relief against future
enforcement of the repayment plan plus attorneys’ fees, Resp. App.
11a-12a, these ancillary remedies were all predicated on the
request to cancel the repayment plan.

3
95a. Petitioner, however, has permanently abandoned
the other ground for seeking dismissal of this lawsuit.
Petitioner no longer seeks to enforce the repayment
plan and it no longer seeks to terminate respondent’s
Section 8 voucher based on her misrepresentations. In
fact, shortly after losing in the California Supreme
Court, petitioner implemented that court’s decision by
recalculating and paying respondent’s higher subsidies
on a going-forward basis. Consequently, the only issue
remaining on remand is the quantification of the prereversal subsidies petitioner must pay for the
appropriate limitations period preceding the state
Supreme Court’s decision. Given petitioner’s
abandonment of the remaining ground for seeking
dismissal, there is absolutely no jurisdictional issue
here because “finality may be achieved if the parties
dismiss or otherwise relinquish the remaining issues
that would preclude finality,” Stephen Shapiro et al.,
Supreme Court Practice 156 (10th ed. 2013) (citation
omitted). Accordingly, because the state court has
effectively “remanded for further proceedings on the
computation of damages,” NAACP v. Claiborne
Hardware Co., 458 U.S. 886, 896 (1982), “its judgment
is final for purposes of our jurisdiction,” id. at 907 n.42.
B. Respondent’s cursory argument challenging this
Court’s jurisdiction is fundamentally wrong for
additional reasons. Respondent claims (Opp. 12-15) the
decision below is not final under Cox Broadcasting
Corp. v. Cohn, 420 U.S. 469 (1975). But she does not
dispute the federal issue as to the proper construction
of HUD’s regulation has been determined finally by
California’s highest court. This Court has never
interpreted the finality requirement of section 1257

4
literally “to preclude review ‘where anything further
remains to be determined by a State court, no matter
how dissociated from the only federal issue that has
finally been adjudicated by the highest court of the
State.’” Cox Broadcasting, 420 U.S. at 477 (citation
omitted). Rather, “the Court has recurringly
encountered” and granted review in “situations in
which the highest court of a State has finally
determined the federal issue present in a particular
case, but in which there are further proceedings in the
lower state courts to come.” Id.
Among the four categories of cases that meet these
criteria, the first two are implicated here. Under the
first category identified in Cox Broadcasting, the
judgment of a state high court on a federal issue will be
“deemed final” where “the federal issue is conclusive or
the outcome of further proceedings preordained.” 420
U.S. at 479 (emphasis added). While respondent omits
the italicized language of the disjunctive test in her
two-sentence discussion of both of these categories
(Opp. 14), that test is dispositive here. The federal
issue is conclusive here because a decision in
petitioner’s favor would necessarily determine the
outcome in this case. If this Court were to grant review
and reverse the California Supreme Court by holding
that respondent’s IHSS income is not excluded from
her annual income in calculating her Section 8
subsidies, that decision would bring this litigation to an
end. While respondent had also sought reinstatement
of her terminated subsidies, that issue is moot, given
petitioner’s reinstatement of her subsidies and
petitioner’s abandonment of any attempt to collect the
amounts unpaid under the repayment plan.

5
This case also fits the second category of cases
identified in Cox Broadcasting. “As the cases in this
category indicate, the state court decision on the
federal issue is considered separable and distinct from
the subsequent proceedings, so much so that the
federal issue will be unaffected and undiluted by the
later proceedings; hence for all practical purposes the
ruling on the federal issue is final.” Shapiro, supra, at
165 (footnote omitted). Because the dispute over the
quantification of respondent’s damages has absolutely
nothing to do with the antecedent liability inquiry, this
category provides another ground for jurisdiction in
this case. See, e.g., NAACP, 458 U.S. at 907 n.42 (First
Amendment ruling deemed final, despite remand for a
recomputation of damages); Brady v. Maryland, 373
U.S. 83, 85 n.1 (1963) (subsequent trial on sole issue of
punishment could not affect federal issue resolved on
appeal from a criminal conviction). Given this Court’s
jurisdiction, respondent’s attempts to deflect the
Court’s attention from the merits of the petition are
futile.
II.

The Mutually Exclusive Views Adopted by
the Conflicting Authorities Cannot Be
Reconciled.

A. Respondent downplays the split openly
acknowledged in the majority opinion below. Opp. 1518; Pet. App. 19a, 21a. Expressly rejecting the Fifth
Circuit’s decision in Anthony v. Poteet Housing
Authority, 306 Fed. Appx. 98 (5th Cir. 2009), the
California Supreme Court held that it was “not
persuaded by Anthony’s reasoning on several grounds.”
Pet. App. 19a. The court explained that “we do not

6
agree with the Fifth Circuit’s narrow interpretation of
the exclusion as limited to out-of-pocket expenses that
a state directly reimburses.” Id. at 20a.
Despite such explicit acknowledgment of the split,
respondent attempts to distinguish Anthony by quoting
the majority’s comment that “Texas does not provide
any amounts directly to families to offset costs incurred
to keep a disabled family member at home.” Opp. 15
(emphasis added). Respondent’s attempt to distinguish
Anthony is hopeless because the income exclusion does
not differentiate between income paid “directly” versus
indirectly by a State. The regulation simply excludes
from income “[a]mounts paid by a State agency to a
family with a member who has a developmental
disability[.]” 24 C.F.R. 5.609(c)(16) (emphasis added).
Therefore, whether the income was paid to the family
directly or through an intermediary who, in turn, pays
the family makes no legal difference. Opp. 15-16.
Furthermore, the point raised by respondent –
whether the Section 8 tenant was paid by “passthrough” funding or directly by the State – was simply
irrelevant in the Fifth Circuit’s analysis. The court
assumed that payments by the State to private
intermediaries constitute “[a]mounts paid by a State
agency to a family,” thus satisfying this aspect of the
income exclusion. Anthony, 306 Fed. Appx. at 101.
Because it was “assuming” this to be the case (ibid.),
the only question left for the Fifth Circuit was whether
such payments could be deemed to “offset the cost of
services” for keeping the tenant’s family member at
home. The court held that because “[o]ne must incur
costs before they can be offset” (ibid.), the family could

7
not invoke the income exclusion to obtain a larger
Section 8 subsidy—the exact opposite of the majority’s
opinion below.
B. Respondent’s attempt to explain away the
express conflict between the California Supreme
Court’s decision and the Minnesota Supreme Court’s
decision in In re Ali, 938 N.W.2d 835 (Minn. 2020) is
also flawed. The majority opinion below held that “as
with Anthony, we disagree with the Ali court’s narrow
interpretation of ‘cost’ and ‘offset.’” Pet. App. 21a.
While both state courts of last resort construed the
identical federal regulation in two mutually-exclusive
ways, respondent seeks to minimize this express
conflict based on one feature of the Minnesota program.
Opp. 17-18. In particular, respondent points out that
the Minnesota program “permits a parent caring for
her minor child to divert some of the state benefit to
pay herself wages, even though she ‘could have
chosen … to pay a different person to provide those
services.’” Id. at 17 (citation omitted).
Setting aside the fact that respondent’s daughter is
now in her thirties, Opp. 8, the construction of the key
terms used in this federal regulation – “cost” and
“offset” – cannot vary state by state. Because the
meaning of these terms in this Section 8 regulation
does not depend on the eligibility rules adopted by
different states in enacting their respective Medicaidfunded programs, respondent cannot make the express
split of authority disappear. In fact, while HUD has
“left it up to states to determine” the meaning of
“developmental disability” as used in the same federal
regulation, Pet. App. 22a, there is no reason to believe

8
that HUD sought to import state law in construing
“cost” and “offset.”
III.

The Proposed Amendment to the Subject
Regulation Has No Bearing on This Case.

Respondent argues the Court should disregard the
split of authority implicated in this case based on a
notice of proposed rulemaking regarding the definition
of income under the subject regulation. Opp. 18-19. The
proposed rule indicates that “HUD is only simplifying
the definition to eliminate confusing regulatory
language that excluded some income that should have
been included,” 84 Fed. Reg. 48820, 48825 (Sept. 17,
2019).
Setting aside this background, respondent’s
argument is fundamentally erroneous for multiple
reasons. Even if the proposed rule were hypothetically
adopted tomorrow, that would apply only on a goingforward basis. The promulgation of such a final rule
would not change the exposure that housing authorities
will continue to face in terms of pre-existing liability for
improper rent calculations that took place prior to such
an amendment. Here, for example, respondent seeks to
recover overpaid rent going back to 1998 when she
enrolled in the Section 8 program administered by
petitioner. The enormous potential liability facing
housing authorities across the nation compels review.
See Alaska v. American Can Co., 358 U.S. 224, 225
(1959) (certiorari granted “in view of the fiscal
importance of the question to Alaska,” even though the
tax statute involved had been repealed).

9
Respondent’s contention that the proposed rule
somehow vindicates the majority’s decision below is
equally flawed. Opp. 19. “It goes without saying that a
proposed regulation does not represent an agency’s
considered interpretation of its statute,” Commodity
Futures Trading Com’n v. Schor, 478 U.S. 833, 845
(1986). And while “an agency is entitled to consider
alternative interpretations before settling on the view
it considers most sound,” ibid., HUD did not change its
view in terms of adopting petitioner’s position. In fact,
even after the notice of proposed rulemaking was
published following the completion of briefing in the
state Supreme Court, HUD continued to maintain its
position at oral argument below that petitioner’s view
“accords with the basic policy objectives of the
regulation” by ensuring that “families that strive to
avoid institutionalization” are “encouraged, and not
punished.” Pet. App. 142a (citation omitted).
Finally, while the proposed amendment to the
regulation has not been adopted despite being
published nearly two years ago, proposed regulations
may be withdrawn or modified at any time. See, e.g.,
Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117,
2123 (2016) (following notice of proposed rulemaking,
federal agency adopted “a final rule that took the
opposite position from the proposed rule”). Because the
income exclusion, as construed by the lower courts,
“remains on the books for now,” Nat’l Ass’n of Mfrs. v.
Dep’t of Def., 138 S. Ct. 617, 627 n.5 (2018), the mere
fact that a modification has been proposed does not
“render this case moot.” Ibid. (after review was
granted, issuance of proposed rule to rescind the
original rule did not establish mootness). In sum, even

10
if we assume the proposed rule is ultimately adopted –
certainly a debatable scenario – this “does not change
the underlying substantive question,” Douglas v.
Independent Living Center, 565 U.S. 606, 614 (2012)
(addressing agency action adopted while case was
pending before this Court).
IV.

Respondent’s Attempt to Minimize the
Impact of the Split of Authority Is Futile.

Respondent claims the decision below “lacks
nationwide importance because it only governs how
California administers housing assistance programs.”
Opp. 19 (emphasis omitted). But the mere existence of
the split of authority based on the decision below
justifies review. The administrative chaos and
confusion caused by having two mutually-exclusive
interpretations of the identical federal regulation
requires this Court’s review as the final arbiter. Pet.
18-21. Review is particularly necessary because “the
California Supreme Court has been, and continues to
be, the most ‘followed’ state high court in the nation.”
Jake Dear & Edward W. Jessen, ‘Followed Rates’ and
Leading State Cases, 1940-2005, 41 U.C. Davis L. Rev.
683, 693 (2007).
As for respondent’s myopic focus on the impact of
the decision in California, the statewide repercussions
of the decision further justify review. There are “over
one hundred housing authorities throughout the state
of California” serving “the needs of [] 395,000
households,” Cal. Ass’n of Housing Authorities Amicus
Br. 1. Because the California Supreme Court’s decision
is binding on all California housing authorities, every
single Section 8 tenant in California receiving

11
homecare payments for family-provided care can now
sue to recover overpayments. Whether these lawsuits
proceed individually or as class actions, the amount of
such liability is staggering. Pet. 26. And while
respondent shifts the blame for such liability exposure
to HUD based on its Guidebook requiring housing
authorities to “immediately refund the total amount
due” (Opp. 24-25), it is the decision below that defines
“the total amount due,” not this timing provision in the
Guidebook.
Seeking to downplay the recurring nature of the
issue presented, respondent also quotes an article
about morbid obesity where the author asserts “the
majority [of States] explicitly prohibit family members
to serve as paid caregivers except in unusual and
limited circumstances.” Opp. 20 (citation omitted).
While the article cites a 2003 survey in a footnote to
support this assertion, it is obsolete. “Today, federal
Medicaid law generally permits states to pay family
members to care for disabled adults. While some states
still restrict who can receive caregiver payments for
adults, those states are now a minority.” Christine
Speidel, Difficulty of Care: Aligning Tax and Health
Care Policy for Family Caregiving, 52 Loy. U. Chi. L.J.
503, 519-20 (2021).
Respondent also dismisses the statistics illustrating
the national significance of the issue presented. Opp.
21. While the precise number of Section 8 participants
subject to the homecare-payment exclusion is not
known, an estimated 1,150,000 individuals receiving
Section 8 vouchers live with a disabled family member.
Pet. 28. Assuming conservatively that only half of those

12
with disabilities have developmental (rather than
medical) disabilities, 575,000 individuals can
potentially use the homecare-payment exclusion. Given
that 71% of developmentally-disabled individuals live
with a family caregiver, Pet. 31, applying this
percentage to the 575,000 figure yields 408,250—the
minimum number of individuals impacted by the issue
presented.
Respondent further quibbles with the precise
number of federal programs that use the income
exclusions found in Section 5.609, arguing that two of
the fourteen programs cited (Pet. 24) are no longer
implicated. Opp. 23. That leaves twelve federal
programs plus an additional five non-federal programs
that use the income exclusions found in this regulation
(Pet. 24), thus illustrating the significant repercussions
of the decision below.
V.

Respondent’s Remaining
Should Be Rejected.

Arguments

Respondent also argues that concerns over the
distribution of funds among current and prospective
Section 8 participants “should be raised before HUD
and Congress, not this Court.” Opp. 24. But in adopting
petitioner’s view, HUD has already articulated the
same concerns. Pet. App. 137a (noting finite funding).
Because the court below substituted its own policy
judgment for that of HUD, the agency to whom
Congress delegated the duty to administer housing
programs, review is necessary.
Finally, respondent’s merits contentions are
irrelevant here. Opp. 26-30. While the dissent below

13
extensively refuted those arguments, Pet. App. 43a68a, respondent claims that her position is supported
“by the rulemaking history of the regulation.” Opp. 28.
Suffice it to say that the agency that promulgated this
regulation completely disagrees with her view. Pet.
App. 141a-147a.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
ROBERT COOPER
Counsel of Record
WILSON ELSER MOSKOWITZ EDELMAN
& DICKER, LLP
555 South Flower Street
Suite 2900
Los Angeles, CA 90071-2407
(213) 330-8950
robert.cooper@wilsonelser.com
Counsel for Petitioner
May 2021

